No. ____
IN THE

Supreme Court of the United States
_________

SIGNODE INDUSTRIAL GROUP LLC AND ILLINOIS TOOL
WORKS, INC.,
Petitioners,
v.
HAROLD STONE ET AL.,
Respondents.
________
On Petition for a Writ of Certiorari
to the United States Court of Appeals for the
Seventh Circuit
________
PETITION FOR A WRIT OF CERTIORARI
________
JOSEPH J. TORRES
Counsel of Record
CLIFFORD W. BERLOW
EMMA J. O’CONNOR
JENNER & BLOCK LLP
353 N. Clark Street
Chicago, IL 60654
(312) 222-9350
jtorres@jenner.com
Counsel for Petitioners

i
QUESTION PRESENTED
Whether the Seventh Circuit erred by holding, in
conflict with decisions reached by at least two other
federal courts of appeals and in spite of this Court’s
holdings in M & G Polymers USA, LLC v. Tackett, 135
S. Ct. 926 (2015) and CNH Industrial N.V. v. Reese, 138
S. Ct. 761 (2018) (per curiam) that collective bargaining
agreements must be interpreted according to generally
applicable principles of contract law, that a collective
bargaining agreement with an “express statement[]
extending benefits beyond the term of agreement”
irrefutably confers vested, lifetime benefits, even if the
agreement separately reserves for the employer the
right to terminate the agreement in its entirety.

ii
PARTIES TO THE PROCEEDINGS BELOW
AND RULE 29.6 STATEMENT
Petitioner Signode Industrial Group LLC is an
indirect wholly owned subsidiary of Crown Holdings
Inc.; Petitioner Illinois Tool Works, Inc. has no parent.
The petitioners are Signode Industrial Group LLC
and Illinois Tool Works, Inc.
The respondents are Harold Stone, John Woestman,
and United Steel, Paper & Forestry, Rubber,
Manufacturing, Energy, Allied Industrial & Service
Workers International Union, AFL-CIO-CLC (USW).

iii
TABLE OF CONTENTS
QUESTION PRESENTED ............................................... i
PARTIES TO THE PROCEEDINGS BELOW
AND RULE 29.6 STATEMENT ............................ii
TABLE OF APPENDICES ........................................... iv
TABLE OF AUTHORITIES ...........................................v
PETITION FOR A WRIT OF CERTIORARI ............. 1
OPINIONS BELOW .......................................................... 1
JURISDICTION ................................................................. 1
STATEMENT OF THE CASE ........................................ 2
I.

Factual Background ................................................... 2

II.

Procedural History ..................................................... 4

REASONS FOR GRANTING THE PETITION.......... 6
I.

The Decision Below Conflicts With The
Precedent Of This Court ........................................... 8
A. Tackett And Reese Reject All Special
Rules Of Construction For Employee
Benefits Contracts .............................................. 8
B. The Decision Below Impermissibly
Applies A Special Rule Of Construction ......... 9

iv
II.

The Decision Below Creates A Split Of
Authority Only This Court Can Resolve .............. 12
A. Other Circuits Have Applied General
Contractual Conditions To Limit Facial
Promises Of Lifetime Benefits........................ 13
B. The Decision Below Cannot Be Squared
With The Decisions Of The Third And
Sixth Circuits..................................................... 16

III. This Court Should Resolve The Question
Presented Now And In This Case ......................... 18
CONCLUSION ................................................................. 22
TABLE OF APPENDICES
Appendix A: Opinion of the United States Court
of Appeals for the Seventh Circuit, No.
19-1601 (Nov. 20, 2019) ................................ 1a–19a
Appendix B: Memorandum Opinion and Order
of the United States District Court for
the Northern District of Illinois, No. 17 C
5360 (Mar. 13, 2019) .................................... 20a–28a
Appendix C: Order of the United States Court
of Appeals for the Seventh Circuit
denying petition for rehearing or
rehearing en banc (Jan. 3, 2020) ............... 29a–30a

v
TABLE OF AUTHORITIES
Page(s)
CASES
Abbruscato v. Empire Blue Cross & Blue Shield,
274 F.3d 90 (2d Cir. 2001) ............................... 15, 17, 20
Barton v. Constellium Rolled Products-Ravenswood,
LLC,
856 F.3d 348 (4th Cir. 2017).......................................... 9
Cherry v. Auburn Gear, Inc.,
441 F.3d 476 (7th Cir. 2006)...................................17-18
Chiles v. Ceridian Corp.,
95 F.3d 1505 (10th Cir. 1996).......................... 15, 17, 20
CNH Industrial N.V. v. Reese,
138 S. Ct. 761 (2018) .............................................. 6, 8, 9
Crown Cork & Seal Co. v. International Association of
Machinists & Aerospace Workers,
501 F.3d 912 (8th Cir. 2007). ................................. 15, 17
Grove v. Johnson Controls, Inc.,
176 F. Supp. 3d 455 (M.D. Pa. 2016) .......................... 14
Grove v. Johnson Controls, Inc.,
694 F. App’x 864 (3d Cir. 2017) ................ 13, 14, 16, 18

vi
International Union, United Automobile, Aerospace &
Agricultural Implement Workers of America v.
Honeywell International, Inc.,
954 F.3d 948 (6th Cir. 2020)........................................ 20
Kerns v. Caterpillar Inc.,
791 F. App’x 568 (6th Cir. 2019) .................... 14, 17, 18
M & G Polymers USA, LLC v. Tackett,
135 S. Ct. 926 (2015) ........................ 6, 7, 8, 9, 10, 11, 12
United Auto Workers v. Rockford Powertrain, Inc.,
350 F.3d 698 (7th Cir. 2003)........................................ 17
STATUTES
28 U.S.C. § 1254(1) ............................................................... 2
29 U.S.C. § 185 ..................................................................... 4
29 U.S.C. § 1132 ................................................................... 4

PETITION FOR A WRIT OF CERTIORARI
Signode Industrial Group LLC and Illinois Tool
Works, Inc. petition for a writ of certiorari to review the
judgment of the United States Court of Appeals for the
Seventh Circuit in this case.
OPINIONS BELOW
The opinion of the court of appeals is reported at
Stone v. Signode Industrial Group LLC, 943 F.3d 381
(7th Cir. 2019) and is reproduced at Pet. App. 1a–19a.
The memorandum opinion and order of the district court
granting summary judgment for Respondents is
reported at 365 F. Supp. 3d 957 (N.D. Ill. 2019) and is
reproduced at Pet. App. 20a–28a.
JURISDICTION
The United States Court of Appeals for the Seventh
Circuit entered its final judgment on November 20, 2019.
On December 2, 2019, the Seventh Circuit extended the
time to file any petition for rehearing or rehearing en
banc to and including December 18, 2019. Signode and
Illinois Tool Works filed a timely petition for rehearing
or rehearing en banc on December 18, 2019. The Seventh
Circuit denied that petition on January 3, 2020. Pet. App.
29a–30a. By Order dated March 19, 2020, this Court
provided that “[i]n light of the ongoing public health
concerns relating to COVID-19 .… the deadline to file
any petition for a writ of certiorari due on or after
[March 19, 2020] … is extended to 150 days from the date
of the lower court judgment, order denying
discretionary review, or denying a timely petition for
rehearing.” This Court therefore has jurisdiction
pursuant to 28 U.S.C. § 1254(1).

2
STATEMENT OF THE CASE
I.

Factual Background

Petitioners are the successors to the business of
Acme Packaging Corporation, which operated a
production facility in Riverdale, Illinois. Pet. App. 2a,
Pet. App. 4a. Respondents are former Acme Packaging
employees who worked at the Riverdale Plant, their
spouses (collectively, the “Retirees”), and the union that
represented the Retirees in all labor negotiations. Pet.
App. 2a–3a, Pet. App. 5a.
On January 1, 1994, Acme Packaging and the union
entered into a Pensioners’ and Surviving Spouses’
Health Insurance Agreement (the “1994 Agreement”).
Pet. App. 3a. The 1994 Agreement was one of many
agreements entered into between Acme Packaging and
the Union. Among the other agreements the parties
agreed to in 1994 was a separate Labor Agreement,
which detailed terms and conditions of employment for
active employees, and a separate Insurance Agreement,
which set forth medical insurance benefits for active
employees. See Br. of Defs.-Appellants, at 5 n.2, Stone v.
Signode Indus. Grp. LLC, No. 19-1601 (7th Cir. June 3,
2019), ECF No. 8. The 1994 Agreement thus addressed
a single topic—medical benefits for retired employees
and their spouses. Id. at 5.
Section 6 of the 1994 Agreement defined the term of
the benefit that agreement conferred:
Any Pensioner or individual receiving a
Surviving Spouse’s benefit who shall become
covered by the Program established by this
Agreement shall not have such coverage

3
terminated or reduced (except as provided in this
Program) so long as the individual remains
retired from the Company or receives a Surviving
Spouse’s benefit, notwithstanding the expiration
of this Agreement, except as the Company and
the Union may agree otherwise.
Pet. App. 3a. The next section of the 1994 Agreement,
Section 7, then provided:
This Agreement shall become effective as of
January 1, 1994 and shall remain in effect until
December 31, 1999 and thereafter subject to the
right of either party on 120 days written notice
served on or after September 1, 1999 to terminate
this Agreement.
Pet. App. 3a.
In September 1998, Acme Packaging filed for
bankruptcy. While those proceedings were pending,
Acme Packaging and the Union entered into a January
26, 2002 agreement (the “2002 Agreement”) that
modified aspects of the 1994 Agreement. Pet. App. 3a–
4a. As is relevant here, the 2002 Agreement left Section
6 intact, but modified Section 7 to extend the earliest
date of termination such that:
the agreement shall remain in effect until
February 29, 2004, thereafter subject to the right
of either party on one hundred and twenty (120)
days written notice served on or after
November 1, 2003 to terminate the Pensioners’
and Surviving Spouses’ Health Insurance
Agreement.

4
Pet. App. 4a (internal quotation marks omitted).
Acme Packaging emerged from bankruptcy on
November 1, 2002. Pet. App. 4a. Shortly thereafter,
Illinois Tool Works acquired certain of Acme
Packaging’s assets, including the Riverdale Plant. Id.
Illinois Tool Works subsequently announced the closure
of the Riverdale Plant, effective April 30, 2004. Id. In
2014, Illinois Tool Works divested itself of its industrial
packaging division, resulting in the creation of an
independent entity, Signode Industrial Group LLC
(“Signode”). Id. Signode assumed responsibility for the
obligations under the 2002 Agreement. Id.
On August 31, 2015, Signode advised the Union that
it was exercising its right pursuant to Section 7 to
terminate the 2002 Agreement. Pet. App. 4a–5a. In
accordance with Section 7’s 120 day notice provision,
Signode stated that the termination would be effective
January 1, 2016. Id.
II.

Procedural History

In July 2017, Respondents filed a lawsuit in the
United States District Court for the Northern District
of Illinois pursuant to Section 301 of the LaborManagement Relations Act, 29 U.S.C. § 185, and Section
502 of the Employee Retirement Income Security Act of
1974 (“ERISA”), 29 U.S.C. § 1132. Pet. App. 5a.
Respondents sought a declaratory judgment that the
retiree health benefits under the 2002 Agreement were
vested and that Signode lacked the authority under the
2002 Agreement to terminate them, as well as an
injunction preventing Signode from terminating the
benefits. See id. The parties filed cross-motions for

5
summary judgment and, on March 13, 2019, the district
court granted summary judgment for the Retirees and
the Union. Pet. App. 20a, Pet. App. 28a.
Although the district court acknowledged that
Section 7 gave Signode the unilateral right to terminate
the 2002 Agreement, it nonetheless held that the retiree
health benefits were vested and not subject to
termination. Pet. App. 24a–27a. According to the district
court, the benefits provided in Section 6 were not
subject to termination because “section 7 does not
mention termination of benefits, only termination of the
agreement.” Pet. App. 25a.
The Seventh Circuit affirmed. Agreeing with the
district court, the court held that Section 6 granted the
Retirees “vested” health benefits because Section 6
stated
that
those
rights
would
continue
“notwithstanding the expiration of this Agreement.”
Pet. App. 9a–10a (emphasis omitted). In doing so, the
court did not acknowledge that the very next clause of
Section 6 provided that this was true “except as the
Company and the Union may agree otherwise.” See Pet.
App. 3a.
The Seventh Circuit then held that the termination
provision of Section 7 did not place a limit on the
availability of benefits. Pet. App. 14a–15a. Like the
district court, the Seventh Circuit held that Section 7
addressed only the termination of “the Agreement” and
not the benefits. According to the Seventh Circuit, the
2002 Agreement “established that the promised healthcare coverage and the underlying Agreement would run
independently—that the duration of the coverage was
not limited to the term of the Agreement.” Pet. App.

6
11a–12a. The court held that this was so because Section
6 “made clear that the health-care benefits would
survive the termination of th[e] agreement” and held
that such an express promise could be limited only by an
explicit reservation of a right to terminate benefits,
which the general provision in Section 7 did not provide.
Pet. App. 13a, Pet. App. 15a–16a.
REASONS FOR GRANTING THE PETITION
In M & G Polymers USA, LLC v. Tackett, 135 S. Ct.
926 (2015), this Court unanimously resolved a longstanding conflict between the circuits by holding that
courts must apply the traditional rules of contractual
interpretation when reviewing collective bargaining
agreements and may not deploy special presumptions
and inferences to find that collectively-bargained retiree
healthcare benefits are vested and unalterable for life.
The Court reiterated that straightforward directive
three years later in CNH Industrial N.V. v. Reese, 138
S. Ct. 761 (2018) (per curiam). In those cases, this Court
categorically rejected, twice, the premise that there is a
unique rule applicable only to collective bargaining
agreements under which “a general durational clause
says nothing about the vesting of retiree benefits” and
that “to prevent vesting” there instead must be “a
specific durational clause for retiree health care
benefits.” Tackett, 135 S. Ct. at 935–36 (internal
quotation marks and citations omitted).
The decision below, which arises under the same
federal statutory provisions that were at issue in Tackett
and in Reese, ignores this Court’s straightforward
directive. In this case, the Seventh Circuit held that a
contract with “express statements extending benefits

7
beyond the term of agreement” creates vested benefits
unless the contract elsewhere “expressly allow[s]
alteration or termination of benefits.” Pet. App. 12a.
This rule has no basis in the common law of contracts.
Indeed, it is indistinguishable from the rule this Court
held was improper in Tackett and in Reese. The Seventh
Circuit thus has done just what this Court refused to do
in Tackett and again in Reese—it has adopted a special
rule for construing collective bargaining agreements
that “plac[es] a thumb on the scale in favor of vested
retiree benefits.” Tackett, 135 S. Ct. at 935.
This Court’s review is warranted not only because
the decision below cannot be squared with Tackett or
with Reese, but also because the Seventh Circuit’s
decision has created inconsistency within the law of
collective bargaining agreements and welfare benefit
plans where none should exist. As courts across the
Nation have recognized, including in post-Tackett
decisions by the Third and Sixth Circuits, this Court’s
directive that traditional rules of contractual
interpretation be applied to lifetime benefit claims
means that provisions generally limiting an agreement’s
duration limit the availability of benefits, even when a
promise of benefits appears in isolation to provide for
vested, lifetime benefits. The Seventh Circuit’s decision
in this case, however, is to the contrary. The Court thus
should grant certiorari to resolve this clear and defined
split of authority.

8
I.

The Decision Below Conflicts With The
Precedent Of This Court.
A.

Tackett And Reese Reject All Special
Rules Of Construction For Employee
Benefits Contracts.

In Tackett, the Court held that there are no special
presumptions, inferences, or rules of interpretation that
apply uniquely to the construction of collective
bargaining agreements. For that reason, the Court
rejected the Sixth Circuit’s bright-line rule that “a
general durational clause says nothing about the vesting
of retiree benefits” and that “to prevent vesting” there
instead must be “a specific durational clause for retiree
health care benefits.” Tackett, 135 S. Ct. at 935–36
(internal quotation marks and citations omitted). That
rule was unwarranted, this Court explained, because
refusing “to apply general durational clauses to
provisions governing retiree benefits .… distort[s] the
text of the agreement,” as this hard and fast interpretive
rule is contrary to “the traditional principle that
‘contractual obligations will cease, in the ordinary
course, upon termination of the bargaining agreement.”’
Id. at 936–37 (citation omitted).
The Court’s decision in Reese makes clear there are
no workarounds to Tackett. In Reese, notwithstanding a
clause limiting the duration of the agreement as a whole,
the Sixth Circuit found it ambiguous as to whether the
parties intended for a collective bargaining agreement
to create vested health care benefits, and thus relied on
extrinsic evidence to hold that the benefits had vested.
138 S. Ct. at 765–66. This Court reversed, holding that
the Sixth Circuit’s finding of ambiguity amounted to a

9
mere repackaging of that court’s prior ‘“refus[al] to
apply general durational clauses to provisions governing
retiree benefits.”’ (citation omitted). Shorn of that
inference, the Court held that resolution of the claim in
Reese was “straightforward” because, inter alia, the
labor contract “contained a general durational clause
that applied to all benefits, unless the agreement
specified otherwise.” Id. at 766.
As the Court has explained, it ‘“is especially
appropriate when enforcing an ERISA plan”’ for
“contractual ‘provisions”’ to be “enforced as written.”
Tackett, 135 S. Ct. at 933 (citations omitted). That is so
because the text of collective bargaining agreements is
“the linchpin” of the entire welfare benefits system. Id.
And as a matter of black-letter contract law, “courts
should not construe ambiguous writings to create
lifetime promises.” Id. at 936 (emphasis added); accord
Barton v. Constellium Rolled Prods.-Ravenswood,
LLC, 856 F.3d 348, 352 (4th Cir. 2017) (noting that
“ordinary contract principles .… foreclose holding that
the retiree health benefits have vested unless
unambiguous evidence indicates that the parties
intended that outcome”).
B.

The Decision Below Impermissibly
Applies A Special Rule Of Construction.

Under Tackett and Reese, this case should have been
“straightforward.” See Reese, 138 S. Ct. at 766. Section 6
of the 2002 Agreement provides that the Retirees shall
continue to have health benefits “notwithstanding the
expiration of this Agreement, except as the Company
and the Union may agree otherwise.” Pet. App. 3a–4a
(emphasis added). Then, in Section 7, the parties agreed

10
that this promise would remain “in effect until February
29, 2004, thereafter subject to the right of either party
on one hundred and twenty (120) days written notice …
to terminate” it. Pet. App. 4a. These provisions have a
plain meaning: Retirees shall have health benefits until
February 29, 2004, thereafter subject to each party’s
unilateral right to terminate them. This accords with the
general principles of contract law, emphasized by this
Court, “that ‘contractual obligations will cease, in the
ordinary course, upon termination of the bargaining
agreement”’ and that “courts should not construe
ambiguous writings to create lifetime promises.” E.g.,
Tackett, 135 S. Ct. at 936–37 (citations omitted)
(emphasis added).
The Seventh Circuit cast those principles aside.
First, it found that Section 6 of the 2002 Agreement
promised “lifetime” benefits because it stipulates that
the Retirees “shall not have such coverage terminated
or reduced … notwithstanding the expiration of this
Agreement,” which the Seventh Circuit read as
containing an “express statement[] extending benefits
beyond the term of agreement.” Pet. App. 9a–10a, Pet.
App. 12a (emphasis omitted). At a minimum, that was an
overstatement because Section 6 limits the duration of
this lifetime promise by providing that health care
benefits will continue after the expiration of the
agreement “except as the Company and the Union may
agree otherwise.” Pet. App. 9a.
The Seventh Circuit compounded its overstatement
by holding that a contract with “express statements
extending benefits beyond the term of agreement”
presumptively is intended to create vested benefits

11
unless the collective bargaining agreement elsewhere
“expressly allow[s] alteration or termination of
benefits,” Pet. App. 12a—that is, unless there is “a
specific durational clause for retiree health care
benefits”—a requirement that this Court rejected in
Tackett, see 135 S. Ct. at 936. As a result, the Seventh
Circuit held that because the condition placed on the
term of the Agreement in Section 7 was “general,” and
not “specific,” it did not limit the duration of the benefits
promised by Section 6.
That is wrong, and fundamentally at odds with both
Tackett and Reese. Under the decision below, if language
granting benefits beyond the term of an agreement is
“express” or “clear,” then the employer reserves the
right to terminate them only if the language reserving
that right is also “express” or “clear” in referring to
those benefits. But under ordinary principles of contract
law, as expressed in Tackett and in Reese, the only
salient question is whether the parties in 2002 agreed—
as Section 6 contemplates—that benefits could be
terminated unilaterally, which under Tackett and Reese
may be accomplished through either a specific or a
general reservation of the right to terminate. That was
the very point underlying this Court’s rejection of the
Sixth Circuit’s prior approach of requiring “a specific
durational clause for retiree health care benefits to
prevent vesting.” Tackett, 135 S. Ct. at 936.
By nonetheless holding that where a promise of
lifetime benefits is explicit, a reservation of rights must
be specific and not general, the Seventh Circuit has
adopted a rule that does exactly what this Court
disapproved in Tackett: it “plac[es] a thumb on the scale

12
in favor of vested retiree benefits” by failing to give
meaning to a clause of “general” application. 135 S. Ct.
1
at 935–36. Review by this Court thus is warranted to
correct this improper interpretation and application of
Tackett and of Reese.
II.

The Decision Below Creates A Split Of
Authority Only This Court Can Resolve.

The Seventh Circuit’s decision in this case not only
resurrects the very rule this Court repudiated in Tackett
and in Reese, it does so in a way that creates new
divisions amongst the courts of appeals. Since the Court
resolved in Tackett that it is improper to apply any type
of special interpretive rules to collective bargaining
agreements, both the Third and Sixth Circuits have held
that under ordinary principles of contractual
interpretation, a general condition placed on collective
bargaining agreements as a whole that does not
1

The Seventh Circuit suggested that Section 6 and Section 7 could
be reconciled if Section 6 is understood to vest benefits “to those
already eligible for them” (i.e., anyone who retired before
termination of the 2002 Agreement), and Section 7 is understood to
reserve for Petitioners the ability to “force the negotiation of a new”
agreement that would apply to “future retirees” (i.e., anyone who
retired after termination of the 2002 Agreement). Pet. App. 14a–
15a. Even if this reading were plausible with respect to how the
parties intended for Section 7 to apply, although it is not, it would
not make sense because it ignores that the 2002 Agreement
specified that the Agreement as a whole was intended to apply to a
closed and defined set of individuals. 2002 Labor Agreement at Page
ID 683-84 ¶ C, Stone v. Signode Indus. Grp. LLC, No. 17-cv-05360
(N.D. Ill. May 8, 2018), ECF No. 36-4. Given this fact, the Seventh
Circuit’s extra-textual ruminations may not alter the meaning of the
unambiguous terms of the 2002 Agreement.

13
specifically mention benefits nonetheless limits the
scope of the promised benefits, even if the promise of
benefits viewed in isolation purports to offer lifetime
benefits. The Seventh Circuit, however, has now taken
the opposite position. The petition thus should be
granted to resolve the confusion on this important point
of collective bargaining and employee benefits law
created by the decision below.
A.

Other Circuits Have Applied General
Contractual Conditions To Limit Facial
Promises Of Lifetime Benefits.

The Seventh Circuit’s rule is that when one clause of
a collective bargaining agreement includes “express
statements extending benefits beyond the term of
agreement,” limits placed by other clauses on the
agreement as a whole do not restrict the availability of
the promised benefits. Pet. App. 12a–13a. Since Tackett,
however, at least two federal courts of appeals have
done just what the Seventh Circuit refused to do in this
case: they applied clauses generally limiting the overall
scope of an agreement to limit what would otherwise be
a promise of lifetime benefits.
In the Third Circuit’s post-Tackett decision in Grove
v. Johnson Controls, Inc., the court affirmed dismissal of
claims for lifetime retiree medical benefits, even though
the collective bargaining agreements promised that
those benefits would extend “until [a retiree’s] death”
and terminate only “on the date of [a retiree’s] death.”
See 694 F. App’x 864, 868 (3d Cir. 2017) (internal
quotation marks omitted). The court explained that
because neither phrase was unambiguously “durational
in nature,” clauses limiting the overall duration of the

14
agreements were best read to “set an exact expiration
date” for the benefits and the “phrases about [a retiree’s]
death” established “that no further benefits are
available if [a retiree] dies before the agreement
2
expires.” Id. at 868–69. Furthermore, the court
emphasized that even if “the phrases referring to any
[retiree’s] ‘death’ are durational in nature,” contractual
language reserving the right to “modify, amend,
suspend, or terminate” the plans in their entirety
overcame any promise of lifetime benefits. Id. at 869–70.
Similar is the Sixth Circuit’s post-Tackett and postReese decision in Kerns v. Caterpillar Inc., 791 F. App’x
568 (6th Cir. 2019), petition for cert. filed, (U.S. Apr. 13,
2020) (No. 19-1227). There, a labor contract provided
that “following the death of a retired Employee, the
company would continue to provide healthcare coverage
for the remainder of his surviving spouse’s life without
cost,” but elsewhere stated that “benefits in accordance
with this Section will be provided for the duration of any
Agreement to which this Plan is a part.” Id. at 570
(internal quotation marks omitted). Citing both Tackett
and Reese, the court held that although the “specific[]”
words used in “the description of the benefit itself”
granted a “lifetime” benefit, that did not “trump[]” a
clause located elsewhere in the contract that placed an

2

The durational provisions applicable to subclasses C through E in
Grove simply stated the effective dates for each contract, but did
not provide for any further reservation of rights or reference the
“until death” promises. Id. at 868–69; see also Grove v. Johnson
Controls, Inc., 176 F. Supp. 3d 455, 461–64 (M.D. Pa. 2016).

15
overall durational limit on the contract as a whole. Id. at
572.
Grove and Kerns align with a larger body of preTackett precedent. For example, the Eighth Circuit in
Crown Cork & Seal Co. v. International Association of
Machinists & Aerospace Workers applied general
durational provisions to permit an employer to
terminate a plan promising that benefits would
“continue[] until your death.” 501 F.3d 912, 918 (8th Cir.
2007). Likewise, the Second Circuit in Abbruscato v.
Empire Blue Cross & Blue Shield, held that a general
reservation of an employer’s right to terminate “the
plans” limited a promise in a plan that the benefits
provided therein would “remain[] in force for the rest of
[the beneficiaries’] lives, at no cost to them.” 274 F.3d 90,
97–98 (2d Cir. 2001). And the Tenth Circuit in Chiles v.
Ceridian Corp. held that a “general reservation of
rights” clause “allows the employer to retroactively
change the medical benefits of retired participants, even
in the face of clear language promising company-paid
lifetime benefits.” 95 F.3d 1505, 1512 & n.2 (10th Cir.
1996), abrogated on other grounds by Tomlinson v. El
Paso Corp., 653 F.3d 1281 (10th Cir. 2011).
Accordingly, the Third Circuit in Grove and the Sixth
Circuit in Kerns, as well as courts in a great many
jurisdictions in a litany of pre-Tackett caselaw, applied
generally applicable restrictions on the terms of
collective bargaining agreements to limit the duration of
promises that, when read in isolation, offer lifetime
benefits. So in those circuits, a general condition on a
collective bargaining agreement limits the availability of

16
benefits unless the agreement expressly states that such
a condition does not apply to the promise of benefits.
B.

The Decision Below Cannot Be Squared
With The Decisions Of The Third And
Sixth Circuits.

The Seventh Circuit’s decision in this case is at odds
with the Third Circuit’s decision in Grove and the Sixth
Circuit’s decision in Kerns, to say nothing of the bounty
of pre-Tackett precedent. It thus creates a split of
authority only this Court can resolve.
First, the decision in this case cannot be reconciled
with Grove. In Grove, the Third Circuit held that
promising retiree health benefits “until death” that are
subject to termination “on the date of [a retiree’s] death”
is limited by a general, non-specific durational clause.
See 694 F. App’x at 868. Here, the Seventh Circuit held
that a comparable promise—that retiree health benefits
will not be “terminated or reduced … notwithstanding
the expiration of this Agreement”—cannot be
constrained by a general condition on the promises made
by the Agreement as a whole, but instead can be limited
only by a clause that “expressly allow[s] alteration or
termination of benefits.” Pet. App. 9a–10a, Pet. App. 12a
(emphasis omitted). This means in the Third Circuit, an
open-ended promise of indefinite duration is limited by a
generally applicable limit on the contract as a whole,
while in the Seventh Circuit such a promise is
constrained only by contractual language that explicitly
limits the availability of benefits.
Second, and for the same reason, the Seventh
Circuit’s decision in this case also cannot be reconciled

17
with the Sixth Circuit’s decision in Kerns. In Kerns,
much as in Grove, the Sixth Circuit held that a promise
that “following the death of a retired Employee,” the
“company would continue to provide” healthcare
coverage “for the remainder of his surviving spouse’s life
without cost” was cabined by general durational
language. 791 F. App’x at 570–72. Under the Seventh
Circuit’s rule, that was wrong because the promise of
lifetime benefits was “express” while the limit placed
upon that promise was “general.”
Third, the Seventh Circuit’s decision cannot be
squared with pre-Tackett decisions from the Second,
Eighth, and Tenth Circuits. In each of those cases, a
general reservation of the employer’s right to terminate
“the plan” restricted the duration of the employer’s
obligation to provide benefits, notwithstanding
contractual language that, when viewed in isolation,
suggested that benefits would continue indefinitely. See
Crown Cork & Seal, 501 F.3d at 918; Abbruscato, 274
F.3d at 98–100; Chiles, 95 F.3d at 1512. Those results
could not stand under the Seventh Circuit’s rule because
none of those clauses “expressly allow[s] alteration or
termination of benefits.” Pet. App. 12a.
Fourth, the split is all the more pronounced because
the Seventh Circuit’s decision in this case is at odds with
that court’s own precedent. For instance, the decision in
this case conflicts with United Auto Workers v. Rockford
Powertrain, Inc., in which the court rejected a claim of
lifetime benefits by correctly explaining that it “must
resolve the tension between the lifetime benefits clause,
and the plan termination and reservation of rights
clauses, by giving meaning to all of them.” 350 F.3d 698,

18
703 (7th Cir. 2003). Then in Cherry v. Auburn Gear, Inc.,
the court similarly emphasized “that ‘lifetime’ benefits
can be limited to the duration of a contract.” 441 F.3d
476, 483 (7th Cir. 2006). Yet despite the emphasis
Petitioners placed on these cases in their appellate brief,
the Seventh Circuit scarcely acknowledged them. Its
failure to examine that line of precedent is particularly
unsettling given that both the Third Circuit in Groves
and the Sixth Circuit in Kerns relied on this line of
Seventh Circuit authority to hold that a generally
applicable limit on the overall terms of a collective
bargaining agreement limits the duration of otherwise
boundless promises for benefits. Grove, 694 F. App’x at
869; Kerns, 791 F. App’x at 572.
In sum, the Seventh Circuit’s declaration that if a
collective bargaining agreement includes an “express
statement[] extending benefits beyond the term of
agreement,” then it is per se established that the
agreement provides for lifetime benefits unless another
provision “expressly allow[s] alteration or termination
of benefits” is irreconcilably in conflict with decisions
reached in numerous cases spanning a large number of
courts of appeals. Absent this Court’s intervention, the
inconsistency the Seventh Circuit has ushered into this
important area of employee benefits law will only grow,
undercutting the clarity that should reign under Tackett
and Reese.
III.

This Court Should Resolve The Question
Presented Now And In This Case.

The question presented is of great importance to the
federal law of benefits and collective bargaining. There
is no way to know exactly how many collective

19
bargaining agreements contain a clause that, when
viewed in isolation, purports to offer lifetime benefits,
and another clause placing a general limit on the overall
terms of the agreement. But such agreements are
sufficiently ubiquitous that at least four cases regarding
such agreements have reached the courts of appeals in
the five years since Tackett—Reese, Groves, Kerns, and
this one.
The rule adopted in this case is of great significance
for all such agreements. If the Seventh Circuit’s unique
rule endures, then it will be applied to all claims for
lifetime benefits arising under collective bargaining
agreements in that circuit. Potentially, there are a great
number of employers in that circuit that will face the
prospect of being responsible for providing lifetime
benefits, notwithstanding that they likely would not
have a similar responsibility if they were located in other
parts of the Nation. To the extent that rule is ultimately
exported to other circuits, the number of employers
subject to that heightened risk of liability will only grow.
Not only is the question presented important, this
case presents a good vehicle for addressing it. The
collective bargaining Agreement at issue in this case is
not complicated. It includes a single clause addressing a
single type of benefit that the Seventh Circuit has
construed as making a lifetime promise. It also includes
a single clause that Petitioners have identified as having
reserved to them the unilateral right to terminate the
Agreement, including the benefits offered therein.
Given the textual simplicity of the 2002 Agreement, the
only issue before the Court is a straightforward, purely
legal one: Did the Agreement confer lifetime benefits as

20
a matter of law because the clause Petitioners emphasize
did not expressly announce that terminating the
Agreement would terminate benefits? The simplicity of
the contractual relationship here differentiates this case
from decisions reached in other similar cases, as cases in
this area of law can frequently involve multiple
interlocking contractual provisions spanning multiple
agreements reached over a broad range of time. E.g.
Abbruscato, 274 F.3d at 97–100; Chiles, 95 F.3d at 1510–
19.
There also is no need for further percolation of the
question presented. As courts have begun to implement
the directive in Tackett and in Reese to apply ordinary
principles of contract law to claims that a collective
bargaining agreement confers vested lifetime benefits,
most have found that there is little ambiguity under
those decisions to resolve. By way of example, the Sixth
Circuit only several weeks ago had little difficulty
finding that under Tackett and Reese there was little
basis to even argue that there were vested lifetime
benefits under the collective bargaining agreements at
issue in International Union, United Automobile,
Aerospace & Agricultural Implement Workers of
America v. Honeywell International, Inc., 954 F.3d 948,
955–58 (6th Cir. 2020). As a result, further percolation
would only permit more courts to join the Seventh
3
Circuit in undermining the clarity of Tackett and Reese.
3

The plaintiffs in Kerns—one of the post-Tackett decisions that is
irreconcilably at odds with the Seventh Circuit’s decision in this
case—seem to be among those seeking to create ambiguity where
none should exist, as they have petitioned this Court for further
review by making arguments that largely track the Seventh

21
Finally, the conflict created by the Seventh Circuit’s
decision in this case with decisions reached by other
courts cannot be explained away by highlighting subtle
textual distinctions between the collective bargaining
agreements at issue in each of those cases. The Seventh
Circuit has established a bright-line rule categorically
applicable to all collective bargaining agreements in
which certain types of promises are vested for life absent
a highly explicit limit that expressly references those
promises. That sweeping principle in no way turns on
precise contractual language. Rather, just as in Tackett
and in Reese, the decision below has established a
generally applicable interpretive rule.
In sum, this case presents a question of federal law
over which there is a conflict between the decision below
and the precedent of this Court, as well as with decisions
reached by other federal courts of appeals, and it does so
in a straightforward factual posture common to cases of
this sort. Petitioners respectfully submit that under
these circumstances, certiorari is warranted.

Circuit’s decision in this case and that are essentially the inverse of
the ones Petitioners advance in this Petition. See Petition for Writ
of Certiorari, Kerns (2020) (No. 19-1227).

22
CONCLUSION
The petition for a writ of certiorari should be
granted.
May 28, 2020

Respectfully submitted,
JOSEPH J. TORRES
Counsel of Record
CLIFFORD W. BERLOW
EMMA J. O’CONNOR
JENNER & BLOCK LLP
353 N. Clark Street
Chicago, IL 60654
(312) 222-9350
jtorres@jenner.com

APPENDIX

1a
Appendix A

In the
United States Court of Appeals
For the Seventh Circuit
No. 19-1601
HAROLD STONE, et al.,
Plaintiffs-Appellees,
v.
SIGNODE INDUSTRIAL GROUP LLC and
ILLINOIS TOOL WORKS INC.,
Defendants-Appellants.
Appeal from the United States District Court for the
Northern District of Illinois, Eastern Division.
No. 1:17-cv-05360 — Thomas M. Durkin, Judge.
ARGUED SEPTEMBER 19, 2019 — DECIDED
NOVEMBER 20, 2019
Before SYKES, HAMILTON, and BRENNAN,
Circuit Judges.
HAMILTON, Circuit Judge. Defendant Signode
Industrial Group LLC assumed an obligation to pay

2a
health-care benefits to a group of retired steelworkers
and their families. Signode then exercised its right to
terminate the underlying benefits agreement. When it
terminated the agreement, Signode also stopped
providing the promised benefits to the retired
steelworkers and their families, despite contractual
language providing that benefits would not be
“terminated ... notwithstanding the expiration” of the
underlying agreement. This appeal presents a single
question of contract interpretation: whether the
agreement in question provided for vested benefits that
would survive the agreement’s termination. We hold
that the contract provided for vested lifetime benefits
and affirm the district court’s permanent injunction
ordering Signode to reinstate the retirees’ benefits.
I. Factual and Procedural Background
The key language relevant to this dispute comes
from a 1994 agreement and its 2002 successor. First, we
describe the two agreements and their contexts,
focusing on the disputed “Continuation of Coverage” and
“Term of this Agreement” provisions. We then describe
the events that followed the execution of the 2002
agreement and led to this lawsuit.
A. The Riverdale Plant and the Pensioners’
Agreements
Plaintiffs Harold Stone and John Woestman worked
for decades at the Acme Packaging Corporation plant in
Riverdale, Illinois. While they worked at the Riverdale
plant, they were represented by the union-plaintiff—
United Steel, Paper and Forestry, Rubber,

3a
Manufacturing, Energy, Allied Industrial and Service
Workers International Union, AFL-CIO-CLC.
On January 1, 1994, Acme and the union entered into
a “Pensioners’ and Surviving Spouses’ Health Insurance
Agreement.” The 1994 Pensioners’ Agreement provided
health insurance benefits to retirees with at least fifteen
years of continuous service and to their families. The
Agreement’s “Continuation of Coverage” provision said:
Any Pensioner or individual receiving a
Surviving Spouse’s benefit who shall become
covered by the Program established by this
Agreement shall not have such coverage
terminated or reduced (except as provided in this
Program) so long as the individual remains
retired from the Company or receives a Surviving
Spouse’s benefit, notwithstanding the expiration
of this Agreement, except as the Company and
the Union may agree otherwise.
The next provision was titled “Term of this Agreement.”
It read: “This Agreement shall become effective as of
January 1, 1994 and shall remain in effect until
December 31, 1999 and thereafter subject to the right of
either party on 120 days written notice served on or
after September 1, 1999 to terminate this Agreement.”
The 1994 Pensioners’ Agreement remained in effect
until 2002, when Acme Packaging was going through
bankruptcy. Acme negotiated a settlement agreement
with the union to ease some of its financial obligations.
As a part of the settlement, Acme and the union replaced
the 1994 Pensioners’ Agreement with a nearly identical

4a
successor called the 2002 Pensioners’ Agreement. It left
the Coverage Provision intact and modified the Term
Provision only to move the earliest termination date
back to February 29, 2004, providing that the agreement
“shall remain in effect until February 29, 2004,
thereafter subject to the right of either party on one
hundred and twenty (120) days written notice served on
or after November 1, 2003 to terminate the ‘Pensioners’
and Surviving Spouses’ Health Insurance Agreement.’”
The 2002 Pensioners’ Agreement and the larger
settlement of which it was a part were approved by the
bankruptcy court in February 2002, and Acme
Packaging emerged from bankruptcy in November 2002.
In October 2003, defendant-appellant Illinois Tool
Works (ITW) acquired the Riverdale plant from Acme
and assumed its obligations under the 2002 Pensioners’
Agreement. In April 2004, ITW decided to close the
plant permanently and entered into an agreement with
the union establishing the terms of the closure.
Operations ceased completely in August 2004. For over
a decade after the plant closed, ITW continued to
administer the health insurance program pursuant to
the 2002 Agreement, providing health-care coverage for
Stone, Woestman, other Riverdale retirees, and their
families.
B. This Lawsuit
In 2014, ITW created a new entity, Signode
Industrial Group LLC, and transferred its obligations
under the 2002 Pensioners’ Agreement to Signode. It
then sold Signode to The Carlyle Group L.P. Signode
continued to provide benefits under the Agreement until

5a
August 2015, when it notified the union that “effective
January 1, 2016, the [health-care program] and the
Agreement will terminate and participants will no
longer be eligible for benefits thereunder.” It notified
the beneficiaries the next day. The union protested
Signode’s unilateral termination of benefits, citing the
“notwithstanding expiration” language of the 2002
Agreement. Signode went ahead and discontinued the
pensioners’ health-care plan. It has not provided
Riverdale retirees or their families with benefits since
the end of 2015.
Plaintiffs Stone and Woestman filed this suit on
behalf of a proposed class of similarly situated Riverdale
retirees, their dependents, and surviving spouses
entitled to health-care benefits under the 2002
Agreement. They alleged that ITW and Signode had
breached the 2002 Agreement in violation of both § 301
of the Labor-Management Relations Act, 29 U.S.C. §
185, and § 502(a)(1)(B) of the Employee Retirement
Income Security Act of 1974 (ERISA), 29 U.S.C. §
1132(a)(1)(B). The union sued for breach of the 2002
Agreement under § 301 of the LMRA.
Both sides moved for summary judgment. The
district court granted plaintiffs’ motion and denied
defendants’ motion, holding that the 2002 Agreement
did not give Signode the right to terminate the benefits.
The district court entered a permanent injunction
ordering Signode to reinstate health-care benefits under
the 2002 Agreement. The district court has not yet acted
on the issue of class certification or entered a final
judgment, but we have jurisdiction over the defendants’
appeal of the injunction under 28 U.S.C. § 1292(a). A

6a
motions panel of this court stayed the injunction pending
appeal. After full briefing and argument on September
1
19, 2019, this panel vacated the stays.
II. Analysis
The only question before us is whether the healthcare benefits provided by the 2002 Pensioners’
Agreement survived the termination of that agreement.
We review a district court’s grant of a permanent
injunction for abuse of discretion. Minnesota Mining &
Manufacturing Co. v. Pribyl, 259 F.3d 587, 597 (7th Cir.
2001). However, legal conclusions underlying the grant
of a permanent injunction, including issues of contract
interpretation, are reviewed de novo. Id.; Soarus L.L.C.
v. Bolson Materials International Corp., 905 F.3d 1009,
2
1011 (7th Cir. 2018).

1

On November 1, 2019, the district court ordered defendants to
restore the health-care benefits no later than January 1, 2020.
2

Because the permanent injunction was based on a legal conclusion
in the grant of summary judgment and this appeal challenges that
conclusion, we must decide that legal issue in this appeal. See Stone
v. Signode Industrial Group, LLC, 365 F. Supp. 3d 957 (N.D. Ill.
2019) (granting summary judgment to plaintiffs). In other words,
we have jurisdiction under 28 U.S.C. § 1292(a) to review the
relevant legal reasoning of the grant of summary judgment insofar
as it is necessary to review the permanent injunction even though
we do not have jurisdiction over the grant of summary judgment
itself. Cf. Cross Medical Products, Inc. v. Medtronic Sofamor
Danek, Inc., 424 F.3d 1293, 1301 (Fed. Cir. 2005) (asserting
jurisdiction over the grant of summary judgment itself under
similar circumstances); LaVine v. Blaine School Dist., 257 F.3d 981,
987 (9th Cir. 2001) (same).

7a
A. Principles of Interpretation
ERISA does not require that retiree health-care
benefits be vested. Vesting of health-care benefits is
determined according to ordinary principles of contract
law. M & G Polymers USA, LLC v. Tackett, 135 S. Ct.
926, 933 (2015); see also Barnett v. Ameren Corp., 436
F.3d 830, 832 (7th Cir. 2006), quoting Pabst Brewing Co.
v. Corrao, 161 F.3d 434, 439 (7th Cir. 1998) (“[I]f
[benefits] vest at all, they do so under the terms of a
particular contract.”). Tackett and its successor, CNH
Industrial N.V. v. Reese, 138 S. Ct. 761 (2018), endorsed
the application of ordinary principles of contract law in
such cases, and they rejected the “Yard-Man”
presumptions in favor of vesting that the Sixth Circuit
established in International Union, United Automobile,
Aerospace, and Agricultural Implement Workers of
America v. Yard–Man, Inc., 716 F.2d 1476 (6th Cir.
1983), and developed in subsequent cases. In particular,
the Supreme Court in Tackett and Reese rejected the
presumption of lifetime vesting where “a contract is
silent as to the duration of retiree benefits.” Tackett, 135
S. Ct. at 937; Reese, 138 S. Ct. at 763. The Supreme Court
emphasized that “contractual obligations will cease, in
the ordinary course, upon termination of the bargaining
agreement.” Tackett, 135 S. Ct. at 937, quoting Litton
Financial Printing Div., Litton Business Systems, Inc.
v. NLRB, 501 U.S. 190, 207 (1991). Tackett and Reese are
consistent with the approach we have taken for decades.
See, e.g., Cherry v. Auburn Gear, Inc., 441 F.3d 476, 481
(7th Cir. 2006), citing Bidlack v. Wheelabrator Corp., 993
F.2d 603, 606–07 (7th Cir. 1993) (en banc), and Pabst, 161
F.3d at 439 (“Unless a contract provides for the vesting

8a
of benefits, the presumption is that benefits terminate
when a collective bargaining agreement ends.”).
Employers, employees, and unions are free,
however, to provide that health-care benefits will
survive the underlying agreement, so that promised
lifetime benefits will indeed survive for a lifetime.
Tackett and Reese teach that courts may not infer
vesting from silence but also indicate that courts should
find vesting where the contract provides for it: “a
collective-bargaining agreement [may] provid[e] in
explicit terms that certain benefits continue after the
agreement’s expiration.” Tackett, 135 S. Ct. at 937,
quoting Litton, 501 U.S. at 207 (alterations in Tackett).
The contract may also provide for vesting through
implied terms: “‘[C]onstraints upon the employer after
the expiration date of a collective-bargaining agreement’
... may be derived from the agreement’s ‘explicit terms,’
but they ‘may arise as well from ... implied terms of the
expired agreement.’” Id. at 938 (Ginsburg, J.,
concurring), quoting Litton, 501 U.S. at 203, 207; accord,
Reese, 138 S. Ct. at 765 (observing that a court may look
to “explicit terms, implied terms, or industry practice”
for indications of vesting). And if the contract is
ambiguous—due to either a patent or latent ambiguity—
extrinsic evidence may be considered in determining
whether the parties intended benefits to vest. Reese, 138
S. Ct. at 765; see also Rossetto v. Pabst Brewing Co., 217
F.3d 539, 545–46 (7th Cir. 2000) (looking to similar
agreements with same employer and identical
agreements within industry to find latent ambiguity on
duration of health-care benefits).

9a
B. Interpretation of the 2002 Pensioners’
Agreement
The 2002 Pensioners’ Agreement unambiguously
provided retirees with vested lifetime health-care
benefits. The Coverage Provision said as plainly as
possible that coverage would survive expiration of the
Agreement. Contrary to defendants’ arguments, the
Term Provision did not transform the right to terminate
the Agreement itself into a loophole that nullified the
plain promise that benefits would survive expiration of
the Agreement. And even if the Agreement were
ambiguous, industry usage and the behavior of the
parties here provide enough evidence to support vesting
such that resolution of any ambiguity in favor of the
plaintiffs as a matter of law would still be correct.
1. The Vesting Language for Continuation of
Coverage
The Agreement’s Continuation of Coverage
paragraph provided that covered individuals “shall not
have such coverage terminated or reduced (except as
provided in this Program) ... notwithstanding the
expiration of this Agreement, except as the Company
and the Union may agree otherwise.” (Emphasis added.)
This language made clear that the promised healthcare benefits vested, i.e., they would survive the
termination of the underlying agreement. In Tackett, the
Supreme Court endorsed this approach: vested benefits
are created when an agreement “provid[es] in explicit
terms that certain benefits continue after the
agreement’s expiration.” 135 S. Ct. at 937, quoting

10a
Litton, 501 U.S. at 207. That is precisely what the 2002
Pensioners’ Agreement did.
If more support were needed, cases addressing
similar language provide persuasive support for the
plaintiffs’ position. In United Steelworkers of America,
AFL-CIO-CLC v. Connors Steel Co., the Eleventh
Circuit held that an identical continuation-of-coverage
provision created vested benefits. 855 F.2d 1499, 1505
(11th Cir. 1988) (“shall not have such coverage
terminated or reduced ... so long as the individual
remains retired from the company or receives a
surviving spouse’s benefit, notwithstanding the
expiration of this agreement”). Contrary to defendants’
representations in their briefs and at oral argument, the
contract in Connors Steel also included a termination
provision like the one in the 2002 Pensioners’
Agreement. Id. at 1502 (“Except as otherwise provided
below, this Agreement shall terminate [upon] the
expiration of sixty days after either party shall give
written notice of termination to the other party but in
any event shall not terminate earlier than September 1,
1983.”). In Keffer v. H.K. Porter Co., the Fourth Circuit
held that materially identical continuation-of-coverage
language also provided vested benefits. 872 F.2d 60, 63
3
(4th Cir. 1989).

3

Defendants suggest that the persuasive force of Connors Steel and
H.K. Porter Co. is tainted by reliance on the Yard-Man inferences
later rejected by the Supreme Court in Tackett and Reese. We
disagree; these cases did not depend on Yard-Man. Connors Steel
held that the unambiguous language of the agreement provided
benefits, explained that this interpretation was consistent with

11a
We have described the agreements in Connors Steel
and H.K. Porter Co. as “specifically provid[ing] that the
employer was obligated to continue making benefit
contributions after the agreement expired,” albeit in the
context of differentiating them from a contract that did
not vest benefits. Int’l Ass’n of Bridge, Structural &
Ornamental Iron Workers, Shopmen’s Div., Local No.
473 v. SR Industries Corp., 940 F.2d 665 (7th Cir. 1991)
(table of decisions without reported opinions), 1991 WL
151901, at *4 (7th Cir. Aug. 9, 1991).
2. The Term Provision
To avoid the clear language providing health-care
benefits that survive the expiration of the 2002
Agreement, defendants rely on the Term Provision. But
the Term Provision only provides the means of
expiration (contemplated in the vesting language of the
Coverage Provision) by permitting either party “to
terminate the ‘Pensioners’ and Surviving Spouses’
Health Insurance Agreement.’” The Coverage Provision
established that the promised health-care coverage and
the underlying Agreement would run independently—
that the duration of the coverage was not limited to the
Yard-Man, and then clarified that the case for vesting was stronger
than in Yard-Man because of the explicit vesting language identical
to the language here. 855 F.2d at 1505. H.K. Porter Co. indicated
only that the court’s determination—based on “the language in the
parties’ agreements” and the conduct of the employer—was
consistent with Yard-Man. 872 F.2d at 64. The Fourth Circuit later
clarified that “the reference to Yard-Man was not necessary to [the
holding in H.K. Porter Co.] that the specific language of the CBA
showed the parties intended for benefits to continue beyond the
expiration of the agreement.” Dewhurst v. Century Aluminum Co.,
649 F.3d 287, 291–92 (4th Cir. 2011).

12a
term of the Agreement. Terminating the Agreement
while leaving coverage intact was consistent with the
vested benefits established by the Coverage Provision.
Indeed, separating the term of coverage from the term
of the Agreement clearly signaled that it was possible—
actually, expected—that the Agreement could end
without affecting the continued health-care coverage.
That is what the Term Provision did.
Defendants argue that the term provision provided
an exception to the promise that coverage would persist
“notwithstanding expiration” of the 2002 Agreement
and that their obligation to provide health-care benefits
was extinguished upon termination of the Agreement.
This interpretation of the Term Provision conflicts with
the Coverage Provision and disregards ordinary
principles of contract interpretation. Cf. Barnett, 436
F.3d at 833 (“Contractual provisions must be read in a
manner that makes them consistent with each other.”).
Defendants rely on cases that addressed contracts
that included both “lifetime” language and reservationof-rights clauses expressly allowing alteration or
termination of benefits—but all without what we see
here, express statements extending benefits beyond the
term of agreement. See Barnett, 436 F.3d at 834
(agreement explicitly reserved employer’s right to
“‘take such action as may be necessary to modify and to
continue for the life of the Labor Agreement’ the
provisions of the health-care plan”); Vallone v. CNA
Financial Corp., 375 F.3d 623, 638 (7th Cir. 2004)
(agreement allowed employer “to prospectively alter or
amend its welfare benefits offered to retirees, even after
retirement”); Int’l Union of United Auto., Aerospace &

13a
Agric. Implement Workers of Am. v. Rockford
Powertrain, Inc., 350 F.3d 698, 703 (7th Cir. 2003)
(agreement “reserve[d] the right to modify, amend,
suspend or terminate [benefits] at any time”).
These cases teach that “lifetime” language that
might appear upon first reading to vest benefits should
not be interpreted to do so if another provision reserves
rights that are inconsistent with vesting. This lesson,
painfully applied in many cases, does not apply here
because the parties to the 2002 Agreement followed the
lesson and made clear that the health-care benefits
would survive the termination of that agreement. The
Term Provision is not at all inconsistent with vesting.
The entire purpose of the “notwithstanding expiration”
language is to establish that termination of the
Agreement would not extinguish the benefits it
promised.
To try to create a conflict in need of resolution,
defendants also propose that the Term Provision should
be read to create an implicit exception to the vesting rule
of the Coverage Provision because the Term Provision
would otherwise be superfluous. This argument fails on
several grounds.
First, even if this reading did render the Term
Provision practically superfluous, this would not be
enough to compel a tortured reading of the Coverage
Provision that would nullify the parties’ clearly
expressed choice to create vested retirement healthcare benefits. The principle that contracts should be
interpreted to avoid rendering language superfluous or
redundant is not absolute. Rather, it is a preference to

14a
be employed to the extent possible given the range of
reasonable meanings that can be ascribed to the
contractual language. See 11 R. Lord, Williston on
Contracts § 32:5 (4th ed., July 2019 update) (“An
interpretation which gives effect to all provisions of the
contract is preferred to one which renders part of the
writing superfluous, useless or inexplicable. A court will
interpret a contract in a manner that gives reasonable
meaning to all of its provisions, if possible.”); see also
GNB Battery Techs., Inc. v. Gould, Inc., 65 F.3d 615, 622
(7th Cir. 1995) (“A contractual interpretation that gives
reasonable meaning to all of the terms in an agreement
is preferable to an interpretation which gives no effect
to some terms.”). Given the clarity of the vesting
language and the coherence of the contractual scheme
under the more natural reading of the contract,
defendants’ position is not persuasive.
Second, the superfluity argument at best cuts both
ways. If the Term Provision were read to allow the
termination of benefits provided by the Agreement,
then it would render superfluous the “notwithstanding
the expiration of the Agreement” language in the
Coverage Provision. What would be the point of
establishing that benefits survive expiration of the
Agreement if the only contractual provision for
terminating the Agreement also terminated the
benefits?
Third, the Term Provision simply is not superfluous
when read—consistent with the vesting language of the
Coverage Provision—to allow only for the termination
of the Agreement and not of the benefits it provides to
those already eligible for them. Collective bargaining

15a
agreements generally terminate at some point, giving
the parties the opportunity to renegotiate. For
retirement health-care benefits, this gives employers
and employees the opportunity to change the scope of
benefits for future retirees. As a general rule, an
agreement like this one covers only those who retire
while it is still in effect. If ITW had not closed the plant
in 2004, it might have decided to scale back retirement
benefits promised in the 2002 Pensioners’ Agreement
and exercised its termination right to force the
negotiation of a new Pensioners’ Agreement, for future
retirees.
The case law in this area—and indeed our very
understanding of what it means for benefits to vest—is
built upon the idea that collective bargaining
agreements do not last forever. That is implicit in the
Supreme Court’s observation that “provid[ing] in
explicit terms that certain benefits continue after the
agreement’s expiration” vests those benefits. Tackett,
135 S. Ct. at 937, quoting Litton 501 U.S. at 207. It is also
implicit in our cases. See, e.g., Auburn Gear, 441 F.3d at
481 (“Unless a contract provides for the vesting of
benefits, the presumption is that benefits terminate
when a collective bargaining agreement ends.”).
The Term Provision here was nothing more than a
durational limit. Instead of setting a firm end date to the
2002 Pensioners’ Agreement, it used a unilateral
termination right to give the parties flexibility to extend
the Agreement past a soft termination date. Defendants’
superfluity theory—which by its reasoning would apply
to all durational limits on benefits agreements—would
lead to the impractical conclusion that no health-care

16a
benefits program could create vested benefits if it even
contemplated the expiration of the agreement. The
better reading of the 2002 Pensioners’ Agreement thus
favors plaintiffs.
3. Extrinsic Evidence
Even if the contract were ambiguous on the vesting
issue, undisputed evidence of industry usage and the
behavior of the parties makes clear that they understood
the Agreement provided vested pension benefits. We
interpret collective bargaining agreements in light of
“relevant industry-specific ‘customs, practices, usages,
and terminology.’” Tackett, 135 S. Ct. at 937–38
(Ginsburg, J., concurring), quoting 11 R. Lord, Williston
on Contracts § 30:4, pp. 55–58 (4th ed. 2012); accord,
Reese, 138 S. Ct. at 765 (“when a contract is ambiguous,
courts can consult extrinsic evidence to determine the
parties’ intentions”). We have applied this principle to
interpret collective bargaining agreements in light of
similar agreements with other employers. In Rossetto v.
Pabst Brewing Co., 217 F.3d 539 (7th Cir. 2000), we
interpreted a collective bargaining agreement between
a brewery and the union of the plaintiff machinists. That
agreement did not provide expressly for vesting and was
silent regarding duration. Id. at 544–45. Nevertheless,
we held that extrinsic evidence showed there was a
latent ambiguity in the contract; we reversed summary
judgment and remanded for trial. Id. at 545–47. We also
found that another employer’s continued provision of
benefits under an identical but expired contract
amounted to substantial evidence supporting the
plaintiff-employees’ interpretation of the agreement as
promising vested benefits. Id. at 546.

17a
The Steelworkers’ agreements in Connors Steel and
H.K. Porter Co.—and the Eleventh and Fourth Circuits’
holdings that those agreements vested health-care
benefits—provide compelling evidence of industryspecific usage here. See Transportation-Commc’n
Employees Union v. Union Pacific R.R. Co., 385 U.S.
157, 161 (1966) (“In order to interpret such an agreement
it is necessary to consider the scope of other related
collective bargaining agreements, as well as the practice,
usage and custom pertaining to all such agreements.”).
For years before the negotiation of the 1994 Pensioners’
Agreement here, the union used similar language in its
health-care benefits agreements with other employers
in the steel industry. Both the Fourth and Eleventh
Circuits concluded that such language created a vested
right to health-care benefits. We characterized these
agreements similarly in SR Industries Corp., 940 F.2d
665, 1991 WL 151901, at *4.
Based on these precedents, the parties to the 2002
Pensioners’ Agreement would have reasonably
understood the language they chose to have the same
effect it had been given by those courts. The background
provided by these other agreements in the industry and
their interpretation by courts support plaintiffs’
interpretation, just as the provision of benefits in the
parallel agreement in Rossetto supported the plaintiffemployees in that case.
This principle is similar to the prior-construction
canon in statutory interpretation. See Antonin Scalia &
Bryan Garner, Reading Law 322 (2012) (“If a statute
uses words or phrases that have already received ...
uniform construction by inferior courts ... they are to be

18a
understood according to that construction.”). While
contract interpretation differs from statutory
interpretation in some ways, this principle applies in
both: the actions of courts have given the phrase a
meaning that parties knowledgeable in the relevant
areas of law are presumed to use. See id. at 324.
The actions of a key Acme and ITW manager also
reflect an understanding that benefits would vest. “How
the parties to a contract actually perform their
contractual undertakings is often ... persuasive evidence
of what the parties understood the contract to require.”
Zielinski v. Pabst Brewing Co., 463 F.3d 615, 618 (7th
Cir. 2006); see also, e.g., Mercury Sys., Inc. v.
Shareholder Representative Servs., LLC, 820 F.3d 46, 52
(1st Cir. 2016) (applying Massachusetts law) (“Extrinsic
evidence may include the parties’ ... course of
performance under the contract.”). Here, Anthony
Kuchta was a benefits program administrator for Acme
and ITW who helped negotiate the 1994 Pensioners’
Agreement, the 2002 Pensioners’ Agreement, and the
2004 Closing Agreement. He testified not only that he
understood the 2002 Pensioners’ Agreement to create
vested lifetime benefits, but also that he advised
employees that if they wanted those benefits, “they
must retire under the 2002 Pensioners’ Agreement and
should do so before the ‘last day’ when the plant closed
and the 2002 Pensioners’ Agreement expired.”
In other words, a manager who played a significant
role in benefits administration—and who signed the 2004
Closing Agreement with the union—assured employees
that the health-care benefits would last for their
lifetimes, but only if they retired under the 2002

19a
Agreement. This is not inadmissible, self-serving
testimony offered in an attempt to vary the meaning of
an unambiguous contract. Cf. Rossetto, 217 F.3d at 546.
The testimony came from a now-neutral non-party who
participated in negotiations on the side of the employer.
Defendants have not rebutted this testimony, which is
all the more powerful because the contemporaneous
statements it describes invited employees to rely upon
them when making retirement decisions.
The permanent injunction issued by the district court
is
AFFIRMED

20a
Appendix B
UNITED STATES D ISTRICT COURT
FOR THE N ORTHERN D ISTRICT OF I LLINOIS
E ASTERN D IVISION
HAROLD STONE and JOHN
WOESTMAN, for themselves and
others similarly situated; and
UNITED STEEL, PAPER &
FORESTRY, RUBBER,
MANUFACTURING, ENERGY,
ALLIED INDUSTRIAL & SERVICE
WORKERS INTERNATIONAL
UNION, ALF-CIO-CLC

No. 17 C 5360
Judge Thomas M.
Durkin

Plaintiffs,
v.
SIGNODE INDUSTRIAL GROUP,
LLC; and ILLINOIS TOOL WORKS
INC.,
Defendants.

M EMORANDUM OPINION AND ORDER
Plaintiffs are a labor union and two former
employees of a company that was Defendants’
predecessor in interest. Plaintiffs sue to enforce
healthcare benefits under a collective bargaining
agreement. The parties have cross-moved for summary
judgment. R. 28; R. 35. For the following reasons,

21a
Plaintiffs’ motion is granted and Defendants’ motion is
denied.
Legal Standard
Summary judgment is appropriate “if the movant
shows that there is no genuine dispute as to any material
fact and the movant is entitled to judgment as a matter
of law.” Fed. R. Civ. P. 56(a); see also Celotex Corp. v.
Catrett, 477 U.S. 317, 322-23 (1986). The Court considers
the entire evidentiary record and must view all of the
evidence and draw all reasonable inferences from that
evidence in the light most favorable to the nonmovant.
Horton v. Pobjecky, 883 F.3d 941, 948 (7th Cir. 2018). To
defeat summary judgment, a nonmovant must produce
more than a “mere scintilla of evidence” and come
forward with “specific facts showing that there is a
genuine issue for trial.” Johnson v. Advocate Health and
Hosps. Corp., 892 F.3d 887, 894, 896 (7th Cir. 2018).
Ultimately, summary judgment is warranted only if a
reasonable jury could not return a verdict for the
nonmovant. Anderson v. Liberty Lobby, Inc., 477 U.S.
242, 248 (1986).
Background
Plaintiffs Harold Stone and John Woestman worked
for Acme Packaging Corporation at its plant in
Riverdale, Illinois, before retiring after 46 and 37 years
of employment, respectively. R. 38 ¶ 3. Stone and
Woestman were members of the United Steel, Paper
and Forestry, Rubber, Manufacturing, Energy, Allied
Industrial and Service Workers International Union,
AFL-CIO-CLC (“the Union”). Id. ¶ 4. In 1994, the Union

22a
negotiated a collective bargaining agreement with Acme
providing for healthcare benefits. After their
retirement, Stone and Woestman have continued to
receive healthcare benefits pursuant to that agreement.
Id. ¶¶ 3, 5, 10-11.
Acme went into bankruptcy. As part of the
bankruptcy settlement, the Union and Acme reached
new collective bargaining agreements in 2001 and again
in 2002, which the bankruptcy court approved. After
emerging from bankruptcy in 2003, Acme was acquired
by defendant Illinois Tool Works. Id. ¶ 25. Although
Illinois Tool Works closed the Riverdale plant and the
collective bargaining agreement expired in 2004, Illinois
Tool Works continued to provide benefits under the
agreement.
In 2014, Illinois Tool Works spun-off part of its
business and transferred its obligations under the
relevant collective bargaining agreement (along with
other assets and liabilities), to defendant Signode
Industrial Group. In 2015, Signode announced that it
was terminating the collective bargaining agreement.
There is no dispute that the parties to this case are
party to the collective bargaining agreement. There is
also no dispute as to the relevant collective bargaining
agreement provisions, which are the following:
Any Pensioner or individual receiving a
Surviving Spouse’s benefit who shall become
covered by the Program established by the
Agreement shall not have such coverage
terminated or reduced (except as provided in this

23a
Program) so long as the individual remains
retired from the Company or receives a Surviving
Spouse’s benefit, notwithstanding the expiration
of this Agreement, except as the Company and
the Union may agree otherwise.
R. 36-5 at 4 (p. 66, § 6). And further that:
[This agreement] shall remain in effect until
February 29, 2004, thereafter subject to the right
of either party on [120] days written notice
served on or after November 1, 2003 to terminate
the [agreement].
Id. at 5 (p. 67, § 7), 10 (p. 7, § II.C(2)).
Analysis
“Unlike pension benefits under ERISA, insurance
benefits, such as the benefits at issue in this case, do not
automatically vest.” Cherry v. Auburn Gear, Inc., 441
F.3d 476, 481 (7th Cir. 2006). “Employers nonetheless
may create vested welfare benefits by contract.”
Sullivan v. CUNA Mut. Ins. Soc’y, 649 F.3d 553, 555 (7th
Cir. 2011). Whether a collective bargaining agreement
creates vested welfare benefits is determined
“according to ordinary principles of contract law.” CNH
Indus. N.V. v. Reese, 138 S. Ct. 761, 763 (2018); see also
Barnett v. Ameren Corp., 436 F.3d 830, 832 (7th Cir.
2006) (“[I]f they vest at all, they do so under the terms
of a particular contract.”). “Therefore, as harsh as it may
sound, in the absence of a contractual obligation
employers are ‘generally free . . . for any reason at any
time, to adopt, modify or terminate welfare plans.’”

24a
Barnett, 436 F.3d at 832 (quoting Curtiss-Wright Corp.
v. Schoonejongen, 514 U.S. 73, 78 (1995)). However,
“[r]ights which accrued or vested under the agreement
will, as a general rule, survive termination of the
agreement.” Litton Fin. Printing Div. v. N.L.R.B., 501
U.S. 190, 207 (1991).
The Supreme Court has held that an agreement can
“vest lifetime benefits for retirees” by “provid[ing] in
explicit terms that certain benefits continue after the
agreement’s expiration.” M & G Polymers USA, LLC v.
Tackett, 135 S. Ct. 926, 937 (2015); see also Bidlack v.
Wheelabrator Corp., 993 F.2d 603, 607 (7th Cir. 1993)
(vesting means “creating rights that will not expire
when the contract expires”); Vallone v. CNA Fin. Corp.,
375 F.3d 623, 633 n.4 (7th Cir. 2004) (“[T]he
characterization of a benefit as ‘lifetime’ can, absent a
reservation of rights clause, indicate that the benefit is
vested.”). Here, the agreement provides that benefits
continue “so long as the individual remains retired from
the Company or receives a Surviving Spouse’s benefit,
notwithstanding the expiration of this Agreement.” In
other words, retired employees are entitled to lifetime
benefits even after the agreement expires. This
language is sufficient to vest the benefits provided by
the agreement, absent language to the contrary, such as
a reservation of rights clause.
Defendants argue that the agreement contains
language limiting the lifetime benefits provided in
section 6. Defendants point out that section 6 is
conditioned by the phrase “except as the Company and
the Union may agree otherwise.” Defendants argue that
this exception works to incorporate section 7 which

25a
permits unilateral termination of the agreement.
Despite section 7’s provision for termination of the
“agreement,” Defendants repeatedly assert that section
7 provides for termination of “coverage” or “benefits.”
See R. 30 at 1 (“The agreement here says nothing about
vesting. Instead it establishes ‘the right of either party .
. . to terminate’ health-insurance benefits.”) (emphasis
added); id. at 7 (“The termination provision then
reiterates the default setting—coverage will continue
until expiration ‘and thereafter’—but then specifies
when coverage may be ended.”) (emphasis added). But
section 7 does not mention termination of benefits, only
termination of the agreement. And the Supreme Court
has held that benefits that vest during the term of an
agreement, “as a general rule, survive termination of the
agreement.” Litton, 501 U.S. at 207. Defendants do not
identify any other “agreement” by the parties to
terminate benefits that could serve as an “exception” to
the lifetime benefits provided by section 6.
Defendants contend, however, that the Seventh
Circuit has held that termination provisions like section
7 serve to limit “lifetime” benefits to the term of the
agreement. See Murphy v. Keystone Steel & Wire Co., 61
F.3d 560, 565 (7th Cir. 1995) (“If a contract provides that
benefits can be terminated, then those benefits do not
vest.”); Vallone, 375 F.3d at 633 (7th Cir. 2004) (“The
problem for the plaintiffs is that ‘lifetime’ may be
construed as ‘good for life unless revoked or modified.’”).
But contrary to Defendants’ argument, the provisions at
issue in those cases are different from the termination
provision at issue here. The provisions in the Seventh
Circuit cases Defendants cite expressly limited the

26a
duration of benefits to the duration of the agreement. See
Cherry, 441 F.3d at 479 (7th Cir. 2006) (“The Company
will maintain [benefits] during the period of this
agreement[.]”); Barnett, 436 F.3d at 832 (“[T]he
company would ‘take such action as may be necessary to
modify and to continue for the life of the Labor
Agreement’ health-care benefits ‘for active employees
who retire on or after July 1, 1994.’”); Vallone, 375 F.3d
at 636 (“The coverages described in this Guide may be
amended, revoked or suspended at the Company’s
discretion at any time, even after your retirement. No
management representative has the authority to
change, alter or amend these coverages.”); Int’l Union
of United Auto., Aerospace & Agric. Implement
Workers of Am. v. Rockford Powertrain, Inc., 350 F.3d
698, 703 (7th Cir. 2003) (“The lifetime benefits clause was
followed by the plan termination clause: ‘[i]n the event
this group plan is terminated, [health insurance]
coverage for you and your dependents will end
immediately.’”); Murphy, 61 F.3d at 566 (“The Plan
states that retiree benefits terminate ‘upon the date the
Plan is terminated or amended to terminate the
Retiree's [or his dependent’s] coverage.’”); Ryan v.
Chromalloy Am. Corp., 877 F.2d 598, 601 (7th Cir. 1989)
(“The coverage of any covered person under the plan
shall terminate on . . . the date of termination of the
Plan[.]”); see also Grove v. Johnson Controls, Inc., 694
Fed. App’x 864, 869 (3d Cir. 2017) (“amend or terminate
the benefits program or any portion of it at any time”).
By contrast, the agreement here provides for
lifetime benefits, see R. 36-5 at 4 (p. 66, § 6) (employees
“shall not have such coverage terminated or reduced . . .

27a
notwithstanding the expiration of this Agreement”); and
separately provides for a date the agreement expires
and the ability to unilaterally terminate the agreement,
id. at 5 (p. 67, § 7), 10 (p. 7, § II.C(2)) (“the right of either
party . . . to terminate the [agreement]”). The agreement
does not provide for the right to terminate the benefits.
The provision of lifetime benefits without provision for
their termination constitutes vested benefits.
Defendants argue further that the Supreme Court
recently held that a “general duration clause” providing
for termination of the agreement is incompatible with an
agreement providing vested benefits. See R. 30 at 1
(citing Reese, 138 S. Ct. at 766). But the Supreme Court’s
holding was premised on the additional fact that the
agreement in that case was otherwise “silent” as to
vesting. Id. (“The 1998 agreement contained a general
durational clause that applied to all benefits, unless the
agreement specified otherwise. No provision specified
that the health care benefits were subject to a different
durational clause. The agreement stated that the health
benefits plan ‘r[an] concurrently’ with the collectivebargaining agreement, tying the health care benefits to
the duration of the rest of the agreement.”). Contrary to
Defendants’ contention that the agreement in this case
is similarly silent as to vesting, the Court has explained
that the language in the agreement provides lifetime
benefits without reference to the agreement’s duration
or termination. Thus, the Supreme Court’s decision in
Reese does not command a decision in Defendants’ favor
here.

28a
Conclusion
For these reasons, Plaintiffs’ motion for summary
judgment, R. 35, is granted and Defendants’ motion for
summary judgment, R. 28, is denied.
ENTERED:

/s/ Thomas M. Durkin_
Honorable Thomas M. Durkin
United States District Judge
Dated: March 13, 2019

29a
Appendix C

United States Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
January 3, 2020
Before
DIANE S. SYKES, Circuit Judge
DAVID F. HAMILTON, Circuit Judge
MICHAEL B. BRENNAN, Circuit Judge
No. 19-1601
HAROLD STONE, et al., Appeal from the United
Plaintiffs-Appellees, States District Court for
the Northern District of
v.
Illinois, Eastern
Division
SIGNODE
INDUSTRIAL GROUP
No. 1:17-cv-05360
LLC, et al.,
Thomas M. Durkin,
Defendants-Appellants. Judge.

30a
ORDER
On consideration of defendants’ petition for
rehearing or rehearing en banc, filed December 18, 2019,
no judge in active service has requested a vote on the
petition for rehearing en banc, and all judges on the
original panel have voted to deny the petition for
*
rehearing.
Accordingly, the petition for rehearing or rehearing
en banc filed by defendants is DENIED.

*

Judge Joel M. Flaum took no part in the consideration of the
petition for rehearing or rehearing en banc.

